U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                      Review of the USMS Office of
                        Internal Investigations
                                      March 2010




                                I-2010-003 

                              EXECUTIVE DIGEST 



       In this review, the Department of Justice (Department) Office of the
Inspector General (OIG) examined the operation of the United States
Marshals Service’s (USMS) unit that is responsible for the processing and
investigation of allegations of employee misconduct. This unit – the
Office of Internal Investigations (OII) – is a part of the USMS’s Office of
Inspection. The OIG focused on OII’s investigation of allegations of
employee misconduct, OII’s staffing, and the USMS’s management and
support of OII.

      We found that from fiscal year (FY) 2004 to FY 2009, OII did not
meet its 90-day standard for completing misconduct investigations in
51 percent (499) of the cases it closed. Of the 499 investigations that
exceeded the standard, 52 (10 percent) took over 9 months, and 18 of
those took more than a year to complete. Further, we found that OII is
increasingly unable to keep up with its workload. We concluded that OII
has not met its timeliness standard for completing misconduct
investigations primarily because of persistent understaffing. During our
review period, OII had only three of its seven investigator positions filled.

       We compared the structure and staffing of the USMS OII to
internal investigations offices in other Department agencies and
determined that OII is under-resourced, has lower-graded investigator
positions, and lacks adequate administrative and analytic support. The
lack of adequate staffing in OII results in investigators having caseloads
three to five times larger than those of investigators in other Department
agencies’ internal investigations offices.

       We also found that Deputy U.S. Marshals generally lack interest in
applying for OII investigator positions. Current and former OII
investigators and USMS management in headquarters and the districts
provided several reasons for this reluctance, including the low grade level
of the position, the fact that serving in a headquarters rotation is not
required as part of a USMS career path or to obtain a promotion in the
agency, the high cost of living in the Washington, D.C., area, and a
negative perception of internal affairs work.

       The USMS Office of Inspection and OII have previously noted the
problems with understaffing of investigator positions, both verbally and
formally to USMS senior management. From 2006 until 2009, the USMS
took limited steps to address the OII understaffing problems.



U.S. Department of Justice                                                      i
Office of the Inspector General
Evaluation and Inspections Division
      In May 2009, USMS senior management approved a request from
the Chief of the Office of Inspection to advertise for temporary OII
investigator positions to assist with the caseload. However, through July
2009 OII was able to attract only three temporary investigators for 90-
day assignments. While the temporary investigators were able to help
OII with approximately 70 investigations, our review found that the total
number of open cases was not reduced during the time the investigators
were at OII. The Chief of the Office of Inspection and the USMS Deputy
Director told us the temporary positions were only a short-term solution
and OII needed a solution for the long term. The USMS had also
reassigned a Deputy U.S. Marshal to OII as an investigator in 2008 when
OII only had two investigator positions filled. However, the USMS did not
use this approach to fill any other vacant positions in OII.

      After the OIG initiated this review, the USMS organized a working
group to examine the chain of command and organizational structure of
OII. The working group issued a report in November 2009 that included
recommendations to: (1) elevate all OII investigator positions from a
GS-13 to a GS-14, (2) elevate the Chief of OII from a GS-14 to a GS-15
and possibly elevate the Chief of the Office of Inspection to a Senior
Executive Service position, (3) increase the number of investigative and
administrative positions in OII to support the work of the investigators,
and (4) retain a centralized OII office structure for now, but consider a
future regionalization of the office.

       The Deputy Director directed the USMS Human Resources Division
to determine if the OII investigator position’s duties and responsibilities
fit the criteria for a GS-14 upgrade. In January 2010, the USMS
upgraded 5 of the 10 investigator positions in the Office of Inspection
from GS-13 to GS-14 by making them non-supervisory team leader
positions. At that time, the decision on how to allocate the upgraded
positions between OII and another component, the Office of Compliance
Review, had not yet been made. However, the USMS subsequently
informed the OIG that the decision would be up to the Chief of the Office
of Inspection.

       We believe that upgrading some OII investigator positions should
help the USMS attract more candidates. However, it is not clear that OII
will be able to fully staff the remaining GS-13 positions. We believe that
additional actions are required to ensure that sufficient resources are
allocated for internal investigations both in the short and the long term.

      In this report, we make two additional recommendations to help
the OII improve its important mission of investigating employee
misconduct in a timely manner:

U.S. Department of Justice                                               ii
Office of the Inspector General
Evaluation and Inspections Division
       1. Continue to pursue short-term strategies to staff the vacant OII
          investigator positions, such as by temporarily assigning
          investigators to OII, until the positions can be filled by
          permanent employees.

       2. Develop a strategic plan to ensure that OII has sufficient
          resources to perform its mission in the long term. The plan
          should be based on a careful analysis of:

           		 whether OII’s structure should remain centralized or be
               regionalized;
           		 the appropriate staffing levels of OII (including investigator,
               administrative, and analytic positions), based on the
               investigative caseload and reasonable investigator case
               assignments; and
           		 the feasibility of and plan for creating a career path for
               Deputy U.S. Marshals that includes a headquarters tour of
               duty.




U.S. Department of Justice                                                   iii
Office of the Inspector General
Evaluation and Inspections Division
                                     TABLE OF CONTENTS 



    BACKGROUND ................................................................................. 1
 


    SCOPE AND METHODOLOGY OF THE OIG REVIEW......................... 6
 


    RESULTS OF THE REVIEW............................................................... 8
 


    CONCLUSION AND RECOMMENDATIONS ...................................... 26
 


    APPENDIX I: COMPARISON OF DEPARTMENT OF JUSTICE 

    COMPONENTS’ INTERNAL INVESTIGATIONS OFFICES .................. 28
 


    APPENDIX II: USMS OII WORKING GROUP REPORT...................... 29
 


    APPENDIX III: THE U.S. MARSHALS SERVICE’S 

    RESPONSE ..................................................................................... 32
 


    APPENDIX IV: OIG ANALYSIS OF THE U.S. MARSHALS 

    SERVICE’S RESPONSE ................................................................... 34
 

 




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      BACKGROUND 



       The mission of the United States Marshals Service (USMS) includes:

          providing for the safety of judges and other court personnel;
          apprehending criminals;
          exercising custody of federal prisoners and providing for
           their security and transportation to detention facilities; and
          ensuring the safety of endangered government witnesses and
           their families.1

The USMS has over 400 offices in the 94 judicial districts, and a
headquarters in Washington, D.C. The President appoints a U.S. Marshal
in each of the 94 districts.

      The Department of Justice’s (Department) fiscal year (FY) 2010 budget
request included 5,544 authorized positions for the USMS, which was an
increase of 772 positions over FY 2009.2 Congress enacted a budget for the
USMS of $1,152.4 million and the 5,544 requested positions

      The USMS website states that the USMS is committed to the highest
standards of ethical behavior as a law enforcement agency and is committed
to upholding the highest levels of integrity for its law enforcement officers as
well as its administrative employees.3 Under USMS policies, when an
employee’s misconduct interferes with the USMS’s ability to carry out its
mission and uphold its ethical standards, the USMS may take disciplinary
action, which can range from a letter of reprimand to dismissal.4

       The USMS discipline process is separated into two phases:
investigation and adjudication. The USMS’s Office of Internal Investigations
(OII), which is located within the Office of Inspection, investigates allegations


       1U.S. Department of Justice FY 2010 Budget and Performance Summary, Part
Two: Summary Information by Appropriation, U.S. Marshals Service, 113.

       2U.S. Department of Justice FY 2011 Budget and Performance Summary, Part
Two: Summary Information by Appropriation, U.S. Marshals Service.

       3 USMS webpage, Ethics and Integrity, www.usmarshals.gov/ethics/index.html
(accessed December 30, 2009).
       4 Examples of misconduct include failure to follow USMS policy, misuse of a

government-issued credit card, driving under the influence, and loss of USMS credentials.



U.S. Department of Justice                                                           1
Office of the Inspector General
Evaluation and Inspections Division
of misconduct.5 The Employee Relations Team, under the Human
Resources Division, coordinates the adjudication phase of the process.6

      This report focuses on the investigation phase of the USMS discipline
process.

The Office of Internal Investigations

      OII is responsible for processing and investigating allegations of
misconduct and for maintaining records associated with misconduct
allegations. In addition, OII manages the USMS’s Shooting Review Board,
which reviews the facts and circumstances surrounding any USMS
employee’s discharge of a weapon. The OII staff is composed of:

          One GS-14 Chief Investigator (Inspector), who supervises the office
           and also conducts employee misconduct investigations.
          Seven GS-13 Deputy Marshal (GS-1811) investigators who conduct
           employee misconduct investigations. As of January 15, 2010, only
           three of the seven investigator positions were filled.
          Two administrative support positions, which are assigned to the
           Office of Inspection and are shared between OII and the Office of
           Compliance Review.

Investigating USMS Employee Misconduct

      When an allegation of misconduct is reported to OII, it initially
forwards the allegation to the Department of Justice Office of the Inspector
General (OIG) in accordance with OIG reporting procedures.7 Allegations of
misconduct by USMS employees also can be reported directly to the OIG.



       5  The Office of Inspection is centralized in headquarters and is composed of OII and
the Office of Compliance Review. The Office of Compliance Review conducts internal
compliance reviews of USMS districts, divisions, and program areas.

       6   The Human Resources Division reports separately from the Office of Inspection to
the USMS Deputy Director and the Director through the Associate Director for
Administration. The Human Resources Division coordinates the adjudication of
misconduct cases only, and it forwards the investigative case files, either to the district or
division involved or to the agency Proposing and Deciding Officials, for determination of
discipline.
        7 OIG Memorandum, Guidelines for Reporting Allegations of Misconduct to the OIG,

July 1, 1998.



U.S. Department of Justice                                                              2
Office of the Inspector General
Evaluation and Inspections Division
       The OIG reviews all allegations to determine whether to:
(1) investigate the allegation; (2) return the allegation to OII as a monitored
referral, with the understanding that the OIG will review the completed OII
investigation; or (3) refer the allegation back to OII for it to handle on its
own as it deems appropriate.

       When the OIG refers an allegation back to OII, the Chief of OII reviews
the allegation and determines if it is: (1) performance-related (for example,
employee tardiness) that can be referred back to the district or division
where the allegation originated for action, (2) misconduct (for example,
misuse of a government credit card) that should be investigated by OII, or
(3) a matter that can be closed administratively.8

      From FY 2004 to FY 2009, OII referred an average of 16.5 percent of
allegations back to the districts and administratively closed an average of 32
percent of allegations each year. A small number of allegations were
eventually handled by other law enforcement agencies, such as the Federal
Bureau of Investigation or the Department’s Civil Rights Division.

       USMS guidelines state that OII “will complete all investigations within
90 days.” After completion of the investigation, the OII investigator submits
the case file to the Chief of OII for review. OII then forwards the completed
case file to the Employee Relations Team in Human Resources for
coordination of adjudication.

      From FY 2004 to FY 2009, OII received a total of 2,995 allegations of
employee misconduct, or an average of 499 allegations a year. Over the
same 6-year time period, OII investigated approximately 37 percent of the
allegations, an average of 184 OII investigations initiated each year. Table 1
presents the number of employee misconduct allegations reported to OII
and the number of cases that were initiated by OII, from FY 2004 through
FY 2009.




       8  OII can close an allegation administratively, through what is called a discretionary
closure, either before or after conducting an investigation, when it is determined that the
evidence is insufficient for USMS to find misconduct, or when the allegation is against a
contractor, which are investigated by the contractor’s employer, not the USMS.


U.S. Department of Justice                                                              3
Office of the Inspector General
Evaluation and Inspections Division
                    Table 1: Allegations Reported to OII and 

                     OII Investigations, FY 2004 – FY 2009 

                  FY 2004    FY 2005        FY 2006   FY 2007   FY 2008     FY 2009          Total
 Allegations
                    477          465          550       632       430          441       2,995
 reported
 Investigations
 initiated by       154          111          223       199       187          228       1,102
 OII
Source: The USMS.

     Figure 1 presents how the 2,995 misconduct allegations received from
FY 2004 to FY 2009 were handled.

            Figure 1: Allegations Reported to OII, by Category, 

                            FY 2004 – FY 2009 


                            7%         7%

                                                                OIG Investigation
              16%
                                                                OII Investigation

                                                                Discretionary Closure 
                                                      37%       (administratively closed)
                                                                District/Division Referral

                                                                Other 
                  33%



   Note: The “other” category includes allegations handled by other law enforcement
   agencies or not categorized in the USMS database.

   Source: The USMS.

      Figure 2 on the next page outlines the USMS misconduct reporting
and investigation process.




U.S. Department of Justice                                                                    4
Office of the Inspector General
Evaluation and Inspections Division
      Figure 2: USMS Employee Misconduct Investigation Process




U.S. Department of Justice                                       5
Office of the Inspector General
Evaluation and Inspections Division
           SCOPE AND METHODOLOGY OF THE OIG REVIEW 



       The review focused on OII’s process for investigating allegations of
employee misconduct, OII staffing, and USMS management and support
to OII. Our review included interviews, data analysis, and document
reviews. We also examined the USMS employee misconduct investigation
process and compared the internal investigations office structure and
staffing with those of three other Department law enforcement
components: the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF); the Drug Enforcement Administration (DEA); and the Federal
Bureau of Investigation (FBI). We conducted our fieldwork from October
2009 through December 2009.

Interviews

       We interviewed a total of 50 officials and staff members at USMS
headquarters and district offices. We randomly selected 30 of the
94 district offices and 2 headquarters divisions, and interviewed the
Chief Deputy U.S. Marshals (and 1 U.S. Marshal) of those districts and
USMS Assistant Directors by telephone regarding their interaction with
OII and their view of the USMS misconduct investigation process. We
also interviewed officials from ATF, the DEA, the FBI, and the
Department’s OIG Investigations Division. The following table lists the
positions of individuals interviewed.

                              Table 2: Interviews

 Organization                                       Position
 USMS, headquarters       Deputy Director
                          Associate Director, Administration
                          Assistant Director (3)
                          Chief, Office of Inspection
                          Chief, OII
                          Chief, Office of Labor and Employee Relations
                          OII Investigator (3)
 USMS, district offices   United States Marshal
                          Chief Deputy U.S. Marshal (30)
                          Former OII Investigator (5)
                          Deputy U.S. Marshal on temporary assignment to OII (3)


U.S. Department of Justice                                                         6
Office of the Inspector General
Evaluation and Inspections Division
 Organization                                       Position
 Other federal agencies   Assistant Special Agent in Charge, Internal Affairs
 and OIG Investigations   Division, ATF
 Division
                          Deputy Chief Inspector, Office of Professional
                          Responsibility, DEA
                          Section Chief, Internal Investigations, FBI
                          Special Agent in Charge, Investigations Division, OIG
                          Assistant Special Agent in Charge, Investigations Division,
                          OIG


Data Analyses and Document Reviews

       We analyzed USMS data on allegations of employee misconduct
investigations from FY 2004 through FY 2009. The data included the
number of reported allegations, the number of investigations conducted,
and the time taken to complete those investigations. In determining the
timeliness of OII’s investigations, we analyzed only the investigations that
were conducted by OII, rather than those conducted by the OIG or those
referred back to the districts or divisions.

       We also reviewed USMS Directives, budget documents, annual
reports, organizational charts, position descriptions, memoranda, policy
guidance, and briefing materials. In addition, we reviewed data and
documents related to the internal investigations offices of ATF, the DEA,
and the FBI. We present data on the investigations conducted directly by
those agencies’ internal investigations offices, not cases referred to the
field or to the OIG for investigation.




U.S. Department of Justice                                                              7
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW 



       OII did not meet its 90-day timeline for over half of the
       misconduct investigations it initiated during the past
       6 years. The primary reason is that since 2002 OII has
       been unable to fill its investigator positions.
       Consequently, each OII investigator has a caseload that
       is three to five times higher than those of internal
       investigators in other Department agencies. While the
       USMS recently upgraded some OII investigator positions
       to attract applicants, additional actions are required to
       ensure that adequate resources are dedicated to USMS
       internal investigations.


OII does not meet the established timeframe for investigating
employee misconduct primarily because of insufficient staffing.

       We determined that 51 percent, or 499 of the 976, investigations
OII initiated and closed between FY 2004 and FY 2009 were not
completed within the USMS’s established timeliness standard. According
to USMS policy, OII will complete internal misconduct investigations in
90 days (3 months).9 Of the 499 investigations that exceeded the
standard, 52 (10 percent) took over 9 months, and 18 of those took more
than a year to complete. Figure 3 depicts the months taken to complete
investigations initiated from FY 2004 through FY 2009.




       9USMS Directives, General Operations, 2.2 Critical Reporting Requirements,
Misconduct Investigations, D.1.b(1).


U.S. Department of Justice                                                          8
Office of the Inspector General
Evaluation and Inspections Division
                     Figure 3: OII Investigations by Case Duration, 

                                   FY 2004 – FY 2009



               200
                      179       OII Standard
               180                      175
                            155
               160
                                  143
               140
                                               117
               120
      Cases




               100
                80
                                                     63
                60                                          46
                40
                                                                   25   21
                                                                                       13   18
                20                                                           10   11

                 0
                       1    2       3    4     5     6      7      8    9    10   11   12   12+
                                                          Months


              Source: USMS OII data.

       Table 3 presents the number of investigations initiated and
completed from FY 2004 through FY 2009, the number of those
investigations that were completed within 90 days and the number that
took longer to complete. OII has not met the timeliness standard in more
than half of investigations in all but 1 year since FY 2004.10 Although
the results shown in Table 3 indicate slightly better performance in
FY 2008 and FY 2009, that improvement is due to the exclusion of open
investigations from the results. As of October 1, 2009, 12 investigations
initiated in FY 2008 and 114 investigations initiated in FY 2009
remained open. Once those investigations are closed, OII will have




       10 USMS Guidelines require OII to complete misconduct investigations in
90 days. In comparison, according to their respective internal guidelines, the DEA has
180 days to complete a misconduct investigation, and the FBI has 180 days to complete
both the misconduct investigation and adjudication of the case (the FBI does not
apportion the 180-day timeframe between the investigation and adjudication phases).
ATF does not have an established timeframe.


U.S. Department of Justice                                                                        9
Office of the Inspector General
Evaluation and Inspections Division
exceeded the 90-day standard for the majority of investigations initiated
in both of those years.11

               Table 3: OII Investigations Initiated and Completed,
                                FY 2004 – FY 2009

                OII Misconduct          Investigations             Investigations
                Investigations        Completed Within 90         Completed in 91
                                         Days or Less               Days or More
             Initiated   Completed     Number      Percent      Number       Percent
FY 2004        154          154           59         38%           95          62%
FY 2005        111          111           48         43%           63          57%
FY 2006        223          223          121         54%           102         46%
FY 2007        199          199           94         47%           105         53%
FY 2008        187          175           87         50%           88          50%
FY 2009        228          114           68         60%           46          40%
Total         1,102        976           477         49%          499          51%

Note: This table displays the cases that closed by the end of FY 2009. As of October 1,
2009, 12 investigations initiated in FY 2008 and 114 investigations initiated in FY 2009
remained open.
Source: The USMS.

       In addition to not meeting its timeliness standards, OII is falling
behind in its cases. At the close of FY 2004, there were 55 investigations
that remained open. At the end of FY 2009, there were 126
investigations that remained open, which represents an increase of
129 percent. While the number of allegations received and investigations
initiated by OII fluctuated between FY 2004 and FY 2009, the increase in
investigations remaining open indicates that OII is not able to keep up
with its investigative caseload. Figure 4 on the next page depicts the
number of OII investigations that remained open at the end of each fiscal
year from FY 2004 through FY 2009.




        11All 12 open investigations initiated in FY 2008 have exceeded the timeliness
standard. Consequently, once these 12 investigations are complete, OII will have
exceeded its timeliness standard for 53 percent of investigations initiated in FY 2008.
Of the 114 open investigations initiated in FY 2009, 60 percent had already been open
longer than 90 days as of October 1, 2009. Therefore, it is no longer possible for a
majority of investigations initiated in FY 2009 to meet the standard.


U.S. Department of Justice                                                             10
Office of the Inspector General
Evaluation and Inspections Division
                             Figure 4: Open OII Investigations at the End of
                                   the Fiscal Year, FY 2004 – FY 2009
                             140
                                                                                      126
                             120

                             100
            Open OII Cases


                              80
                                                                             66
                                     55                            57
                              60
                                                         41
                              40               33

                              20

                              0
                                   End FY    End FY    End FY    End FY    End FY    End FY 
                                    2004      2005      2006      2007      2008      2009


                Source: The USMS.

        We believe that OII is not meeting its timeliness standard mainly
because it does not have a full complement of investigators in OII.
According to the Chiefs of the Office of Inspection and OII, although
authorized seven investigator positions OII has not been fully staffed
since at least 2002. The USMS was not able to provide a precise record
of its staffing level for the OII investigator positions for prior years.
However, we interviewed the current and former Chiefs of the Office of
Inspection and OII whose assignments in the Office of Inspection
spanned 2002 to the present, and they all told us that the office was
never fully staffed during their assignments in OII. During our review
between October 2009 and December 2009, OII had only three of the
seven authorized investigator positions filled.12 We were told that since
2003 OII has never had more than five of the seven investigator positions
filled.

       Because of this understaffing, OII investigators are assigned very
large caseloads. During our review period, each of the 3 OII investigators
had a caseload of at least 40 open investigations. This workload far
exceeded the typical caseload for investigators in the Department’s other


       12 As of January 15, 2010, OII had only three of the seven investigator positions
filled. However, one of the investigators was on extended medical leave, and OII only
had two working investigators.


U.S. Department of Justice                                                                     11
Office of the Inspector General
Evaluation and Inspections Division
law enforcement components’ internal investigations offices. When we
compared the workload of USMS OII investigators to the workload of
investigators in ATF, the DEA, and the FBI, we found that OII
investigators have caseloads three to five times larger than investigators
in those other law enforcement components.13 ATF, the DEA, and the
FBI told us their internal investigators were assigned 15 or fewer cases at
a time. These components’ internal investigations units had
considerably more staff to perform investigations, in addition to
administrative and analytic support personnel. Table 4 presents the
caseloads and staffing levels at the USMS and the other components.

      Table 4: Number of Cases and Staffing Levels of the USMS 

               Compared to ATF, the DEA, and the FBI 

                     Investigators’ open          Staff positions in internal
                          caseload                   investigations office
                                              10 total:

        USMS       40+ cases                   7 Investigators
                                               1 Supervisor/Manager
                                               2 Support (shared positions)
                                              23 total:
                                              12 Investigators
        ATF        10 to 15 cases              3 Use of Force Investigators
                                               3 Supervisors/Managers
                                               5 Support
                                              52 total:

        DEA        12 cases                   29 Investigators
                                               7 Supervisors/Managers
                                              16 Support
                                              26 total:

        FBI        7 to 8 cases               10 Investigators
                                               4 Supervisors/Managers
                                              12 Support

        Note: Caseloads include only the cases conducted by the internal
        investigators.
        Sources: The USMS, ATF, the DEA, and the FBI.

      OII misconduct investigations are also affected by a requirement
that the investigators serve as the acting OII duty agent on a rotational

       13   See Appendix I for a complete comparison of the internal investigations
offices of USMS, ATF, the DEA, and the FBI.


U.S. Department of Justice                                                            12
Office of the Inspector General
Evaluation and Inspections Division
basis and one OII investigator also processes missing property paperwork
as a collateral responsibility.14 Each month one OII investigator is
assigned as the duty agent to answer calls from the districts and respond
to incidents in which USMS personnel discharged firearms or used force.
Because OII is staffed with only three investigators, each must serve as
the duty agent every third month.

       Duty agent responsibilities can require a significant amount of
time. For example, when a shooting incident occurs, the duty agent
must fly immediately to the district and coordinate with local law
enforcement officials as a representative of the USMS. In FY 2009 there
were 41 firearm discharges, of which 20 qualified as shooting incidents.
Consequently, each OII investigator had to respond approximately six
times over the fiscal year, interrupting work on their investigative
caseloads for about 3 to 4 days each time. Other use of force incidents
may not require that the investigator respond in person, but the duty
agent must evaluate documents, coordinate with district or division
offices, and generate correspondence notifying relevant divisions of the
incident. One OII investigator has the collateral duty to process all
missing property paperwork in addition to their regular investigative
duties and duty agent responsibilities. Overall, these tasks are time-
consuming and significantly reduce time spent on the misconduct
caseload.

       The USMS has experienced an increase in these incidents over the
last 6 years. Table 5 lists the number of shootings, other use of force
incidents, and missing property incidents handled by OII investigators
each fiscal year from FY 2004 through FY 2009.




       14  “Missing property” includes loss of badges, credentials, or firearms and some
vehicle accidents.


U.S. Department of Justice                                                            13
Office of the Inspector General
Evaluation and Inspections Division
                  Table 5: OII Collateral Duty Workload, 

                           FY 2004 – FY 2009 


                            Shooting      Other Use of        Missing
          Fiscal Year
                            Incident         Force            Property

           FY 2004              7              80               155

           FY 2005             21              104              199

           FY 2006             17              93               188

           FY 2007             20              167              131

           FY 2008             17              231              268

            FY 2009            20              290              252

        Notes: “Other use of force” includes use of physical control,
        chemical munitions or irritants, stun guns or Tasers, and
        expandable batons. The “shooting incident” numbers are only those
        firearms discharges in which the OII duty agents had to respond.
        Source: The USMS.

      Further, according to Office of Inspection management, OII lacks
adequate administrative and analytic support to help its investigators
with misconduct investigations. OII and the Office of Compliance Review
(another unit under the Office of Inspection) share two administrative
support personnel. Consequently, OII investigators must perform
administrative duties related to the misconduct investigations, such as
compiling case files and entering data into the investigative database.
According to Office of Inspection management, the large caseloads of OII
investigators mean they spend a considerable amount of time performing
these administrative duties.

      In comparison, we found that ATF, the DEA, and the FBI have
more support personnel in their internal investigations offices, including
a mix of administrative and analytic support. ATF has four management
analysts and a project coordinator; the DEA has seven program analysts,
two intelligence research specialists, and seven administrative assistants;
the FBI has seven conduct review specialists and five conduct review
assistants.

       The Chief of the USMS Office of Inspection told us that he would
like to have additional support personnel and be fully staffed. He said
this would also allow the office to conduct “proactive” analysis on
misconduct and use of force incidents, identify trends in misconduct,


U.S. Department of Justice                                                  14
Office of the Inspector General
Evaluation and Inspections Division
and assist in compiling and analyzing the data for the Office of
Inspection Annual Report.

OII has not attracted sufficient staff for its investigator positions.

       We found that OII has trouble attracting sufficient staff for the
investigator positions. In 2003, OII advertised 3 investigator positions
and received 22 applications. However, in 2009, OII advertised two times
for a total of six positions and received a total of three applications.
Lacking applicants, and not being able to mandate that staff be assigned
to the Office, OII was unable to fill these investigator positions.

      Figure 5 shows the steady decline in applicants responding to OII
investigator position announcements.

Figure 5: Applicants per OII Investigator Position Announcement,
                        FY 2003 – FY 2009

          8.0
          7.0        7.3

          6.0              6.3

          5.0
          4.0                                                  Applicants Per  
          3.0                                                  Position
                                       2.5
          2.0                    2.2
                                             1.3   1.6
          1.0
                                                         0.5
          0.0


                  2003 2004 2005 2006 2007 2008 2009




            Source: The USMS.

       Current and former OII investigators and USMS managers in
headquarters and the districts, including 30 Chief Deputy U.S. Marshals
we interviewed, described several reasons for Deputy U.S. Marshals’ lack
of interest in applying for the OII investigator positions. The reasons
they raised are described in the following sections.

The grade of the OII investigator position is low.

      The USMS’s OII investigator positions have not been upgraded like
other Deputy U.S. Marshal positions have been over the years.


U.S. Department of Justice                                                        15
Office of the Inspector General
Evaluation and Inspections Division
       According to the USMS Associate Director of Administration, in the
1980s the journeyman level of a Deputy U.S. Marshal was a GS-9, a
supervisory Deputy U.S. Marshal was a GS-11, a Chief Deputy
U.S. Marshal was a GS-12 or GS-13 in larger districts, and the OII
investigator position was a GS-13.15 Currently, the journeyman level of a
Deputy U.S. Marshal is a GS-12, the supervisory Deputy U.S. Marshal is
a GS-13, and the Chief Deputy U.S. Marshal is a GS-14 or GS-15 in
larger districts. The OII investigator position remains a GS-13.

       The OII investigator positions are not similar in grade to
investigator positions at ATF, DEA, and FBI internal affairs offices, which
are graded at a GS-14 level. The heads of these offices told us they
believed it was important to have higher-level positions in internal affairs
because the investigators must often interview senior officials and deal
with sensitive information. These officials also told us that they want to
attract investigators who are considered “seasoned.”16

Assignment to headquarters is not required for career advancement in
the USMS.

       No established career track or path for Deputy U.S. Marshals
requires them to work in USMS headquarters, which hampers
headquarters offices’ ability to attract candidates. Additionally,
according to the USMS Deputy Director and other USMS managers,
starting around 2003 the USMS created additional non-supervisory
GS-13 level positions in the districts. Consequently, Deputy U.S.
Marshals do not have to work in headquarters to advance to this level.17
Prior to 2003, there were no non-supervisory GS-13 level positions
available in the districts, which allowed headquarters units such as OII
to attract more applicants that wanted to be promoted. In addition,
because serving as an OII investigator is not required for career


       15  The grade level of General Schedule (GS) employees in the U.S. Civil Service
is established according to a position description that details the range and complexity
of the duties and responsibilities of the position. The OII investigator position has been
a GS-13 since 1986.

       16 ATF, the DEA, and the FBI require internal investigators to have supervisory
experience.

       17  The number of GS-13 positions in the field increased because of the
upgrading of the supervisory Deputy U.S. Marshals and the creation of Judicial
Security Inspectors, Witness Security Investigators, and other positions related to
enforcement of the Adam Walsh Act.


U.S. Department of Justice                                                             16
Office of the Inspector General
Evaluation and Inspections Division
advancement, USMS staff members do not want to give up the criminal
investigative work they currently perform.

       In contrast, other law enforcement components require agents to
serve assignments in internal affairs or other headquarters units for
career advancement. For example, FBI Special Agents who seek
promotion to senior level positions are required to have worked in the
agency’s Internal Investigation Section or to have conducted internal
investigations in the field by acting as an “Assistant Inspector in Place.”
ATF and DEA Special Agents are not required to work in the internal
affairs offices, but accepting an assignment to headquarters is part of
their career path requirement. In addition, when DEA employees apply
for higher-level positions, their work in internal investigations offices can
help elevate their ratings on certain criteria, improving their chances for
promotion.

       The prospect of a USMS headquarters assignment is also
financially unattractive to many potential applicants. Accepting an
assignment as an OII investigator may mean relocation to the
Washington, D.C., area. We were told that USMS staff members view the
Washington, D.C., metropolitan area as an expensive place to live
(especially relative to other locations in which Deputy U.S. Marshals are
assigned) that requires long commutes to work. Many of the Chief
Deputy U.S. Marshals we interviewed told us that USMS staff would be
more attracted to the investigator positions if the positions were located
outside of the Washington, D.C., area, something that would be possible
if OII were structured regionally rather than centralized.

      USMS staff can be promoted while remaining in the districts
during their entire careers. For example, only 5 of the 30 Chief Deputy
U.S. Marshals we interviewed had ever worked in USMS headquarters.
The USMS Deputy Director told us, “USMS employees typically stay in
one location or area [as they move up], while other agencies transfer staff
in and out or up to headquarters.” He stated, “To go away from this
would require a cultural shift in the USMS.” Consequently, relocating to
Washington, D.C., for a GS-13 position that is not essential for career
advancement is not an attractive prospect for most USMS employees.

      Not requiring a headquarters or internal investigations assignment
in the career path for Deputy U.S. Marshals may also contribute to a
negative perception of internal affairs work. USMS staff in the districts
told us that OII is sometimes viewed as the “rat squad” that looks for



U.S. Department of Justice                                                 17
Office of the Inspector General
Evaluation and Inspections Division
additional misconduct or problems when conducting investigations.18
Although USMS OII investigators and managers told us that experience
in OII is invaluable and helps tremendously if they become supervisors
or managers, our interviews with field staff indicate this opinion is not
widely shared among the USMS workforce.

       In contrast, we were told that the view of internal affairs work at
the other Department agencies is more positive. By requiring a
headquarters or internal investigations unit rotation as part of a career
path, the agencies have been able to overcome negative perceptions that
affect recruitment efforts.

      ATF, DEA, and FBI officials also stressed that internal
investigations are considered necessary to maintaining the integrity of
the agency, and their employees understand the reason for the
investigative process. They said that in their agencies, internal
investigation positions are highly sought and the investigators gain a
breadth of experience that helps them in management positions when
they return to the field.

       In sum, we found that the low grade level of the investigator
positions (GS-13), the fact that serving a headquarters rotation is not a
required part of the USMS career path, the high cost of living in the
Washington, D.C., area, and a negative perception of internal affairs
work combine to make it difficult to attract applicants for the position.

USMS has not generally used its ability to reassign staff to the OII.

     Although OII has not been able to attract sufficient applicants, the
USMS does have the ability to reassign staff to satisfy the needs of the
agency. USMS policy states:

       28 CFR 0.111, 0.138, and 0.153 vests in the Director of the USMS the
       authority to take final action in matters pertaining to the employment,
       direction and general administration (including appointment,
       assignment, training, promotion, demotion, compensation, leave,
       classification, temporary hiring of experts and consultants, separations




       18  In addition, we were told that some Deputy U.S. Marshals interested in
working in OII might not apply because they must apply to the Office of Inspection as
an investigator, therefore could be assigned to either OII or to the Office of Compliance
Review where they would be required to perform compliance reviews.



U.S. Department of Justice                                                             18
Office of the Inspector General
Evaluation and Inspections Division
       and approval of staffing requirements) of personnel in general schedule
       grades GS-1 through GS-15 . . . .19

However, the USMS has generally not used this authority to direct staff
to OII assignments. As described below, the USMS has only reassigned a
staff member to OII in one instance.

Lengthy misconduct investigations and continued OII understaffing
have consequences across the USMS.

      Lengthy investigations can delay promotions and career
progression of employees under investigation, which can damage
employee morale, and hinder the USMS’s ability to appropriately manage
its workforce.

Employees’ careers are halted during misconduct investigations.

       The USMS delays promotions for employees who are the subjects
of ongoing misconduct investigations. We found this to be the most
common concern about the length of investigations among all the USMS
staff and managers we interviewed. According to USMS policy, “If a
supervisory official learns that an employee who is up for a promotion,
incentive award or other favorable personnel action may face
investigation due to allegations of misconduct, the official will inform the
Chief, Employee Relations Team, so that such reward may be withheld
temporarily.”20

      Prior to consideration by the Career Board, USMS employees
applying for promotions have their names searched in OII’s database to
determine if they are subjects of any open investigations. In September
2009, 68 out of the 362 (19 percent) employees who submitted an
application to the Career Board for consideration were the subjects of
investigations and were automatically deemed ineligible for
consideration. These employees may incur financial losses and forfeit
career advancement even if they are ultimately cleared of misconduct.
These consequences are particularly troubling if otherwise qualified
employees are considered ineligible for promotion due to an investigation
that remained ongoing because OII lacked the resources to complete its
work within established timeframes. The consequences of these

       19   USMS Directive 3.1 - Employment: Personnel Authority and Actions.

       20   USMS Directive 3.3, Performance & Related Matters, Discipline and Adverse
Actions.


U.S. Department of Justice                                                         19
Office of the Inspector General
Evaluation and Inspections Division
prolonged misconduct investigations and delayed promotions can affect
the morale of employees under investigation.

The USMS’s ability to manage its workforce is hampered.

      Chief Deputy U.S. Marshals told us that lengthy investigations
may also hinder district and division leadership’s ability to manage their
workforce and carry out the USMS’s mission. The restriction on
promoting employees who are the subjects of investigations affects the
USMS’s ability to promote qualified candidates. Further, depending on
the nature of the allegations, the USMS may temporarily reassign
employees from mission-related operations to administrative duties while
the misconduct investigations are ongoing. Each of these outcomes can
result in the underutilization of staff resources and lower productivity.

       Prolonged investigations can also allow misconduct to go
undeterred for a long period of time. Moreover, several Chief Deputy
U.S. Marshals told us that they believed that when a significant lapse
occurs between misconduct and the resulting penalty, it reduces the
effectiveness of the discipline process as a deterrent to misconduct.
USMS staff we interviewed also told us that the delays caused by OII’s
lengthy investigations and the lack of any action to reduce the delays
have led to the perception that the disciplinary process is not a top
priority for the agency.

Limited actions have been taken to improve OII’s ability to
complete investigations expeditiously.

      Between 2006 and 2009, Office of Inspection and OII managers
requested assistance from the USMS leadership, but the USMS took
limited action to remedy the understaffing in OII. These actions included
reassigning one investigator to OII, approving temporary investigators for
OII, and conducting several reviews to identify solutions to OII’s
understaffing. These actions are detailed in the section below.

Initial requests to upgrade OII positions were not approved.

       The current and former Chiefs of the Office of Inspection and OII
said that staffing shortages existed in OII since approximately 2003, and
that requests were made to senior USMS management for assistance and
additional resources to allow the office to better attract applicants as
early as 2006. The Chief of the Office of Inspection who led the office
from 2006 to 2008 stated that he had verbally brought the understaffing
problem to the Deputy Director’s attention on several occasions and

U.S. Department of Justice                                               20
Office of the Inspector General
Evaluation and Inspections Division
submitted a formal report to senior management about the problem in
2006.21 According to the former Chief, the 2006 report described OII’s
chronic staffing shortages and recommended elevating the OII
investigator position from a GS-13 to a GS-14 to help attract candidates
to serve in OII. He stated that he did not receive a response to the
proposal before he left the Office of Inspection in 2008.

       The current Chief of the Office of Inspection told us that after he
assumed that position in December 2008 he requested a formal response
to the former Chief’s proposal, and the USMS Deputy Director at the time
told him in January 2009 that the USMS did not plan to upgrade the
positions. The Chief said he continued to request assistance to address
the understaffing problems in OII.22

The USMS assigned one investigator to OII in July 2008.

      In July 2008, the USMS used its authority to reassign staff one
time to assist OII. This investigator was assigned to OII during a tour of
duty in headquarters without having applied to OII. At the time, OII had
been reduced to only two investigators. The reassigned investigator was
originally given a temporary assignment to OII, but he was made a
permanent investigator 3 weeks after starting in OII. He worked in OII
until November 2009, when he transferred back to a USMS district.

      The USMS did not use this approach to fill any other OII vacant
investigator positions. The Deputy Director told us he was concerned
about forcing an assignment on USMS personnel.

OII received approval to recruit temporary investigators in May 2009.

       In an attempt to alleviate the large caseloads of OII investigators,
the Chief of the Office of Inspection requested, and in May 2009 received,
approval to advertise for investigators to serve short-term assignments to
assist OII with misconduct investigations. The Office of Inspection
advertised these temporary positions on three occasions:




       21  The OIG could not obtain a copy of this report because neither OII, the former
Chief, nor the current Deputy Director had a copy.

       22  The current USMS Deputy Director told us he had not seen the 2006 report
and did not know why the previous Deputy Director made the decision to not upgrade
the OII investigator positions.


U.S. Department of Justice                                                           21
Office of the Inspector General
Evaluation and Inspections Division
       		 On May 15, 2009, the Office of Inspection advertised
           10 positions (at GS-12 or higher) for a 120-day temporary duty
           assignment to OII. Travel, per diem, and lodging costs were to
           be paid by the Office of Inspection. However, there were no
           applicants for the temporary positions.

       		 On May 28, 2009, a second announcement advertised the
           10 positions and shortened the duty assignment from 120 days
           to 90 days in an effort to attract applicants. In addition,
           selectees were offered two trips back to their home duty station
           during the 90-day assignment. OII received two applications in
           response to this announcement, both of which were approved
           for selection. These investigators finished their temporary duty
           assignments and returned to their district office on October 2,
           2009.

       		 On July 23, 2009, OII again advertised 10 positions for 90-day
           assignments with the same benefits as the second
           announcement. OII received only one application, which was
           approved for selection. The investigator completed his
           temporary duty assignment and returned to the district office
           on November 17, 2009.

       The three temporary investigators who worked in OII initially
assisted the permanent OII investigators and, after obtaining some
experience, were assigned less complex misconduct cases to handle
independently. The Chief of the Office of Inspection stated that the
temporary investigators were able to help with approximately 70 cases.
However, he said that the assignments were only for 90 days, which
limited the temporary investigators’ ability to develop the expertise to
conduct investigations independently. Additionally, he noted that this
initiative created an “administrative burden” because OII had to secure
lodging for the temporary investigators, process travel vouchers, and
manage financial reimbursement agreements with each district.

       The three temporary investigators told us that the experience was
positive, but that by the time they felt capable of providing significant
assistance to OII, their temporary assignments were complete. Overall,
our review found that the use of temporary investigators to some extent
has been helpful to OII, but it did not enable OII to reduce the number of
open cases overall (see Figure 4 on page 11).




U.S. Department of Justice                                               22
Office of the Inspector General
Evaluation and Inspections Division
Efforts to reclassify OII investigator positions and restructure OII and
began in June 2009.

       The Chief of the Office of Inspection told us that in June 2009 he
started drafting a justification to reclassify the GS-13 OII investigator
position as a GS-14. He said that sometime in the fall of 2009 the USMS
Deputy Director verbally approved upgrading four of the seven
investigator positions in OII to GS-14. Also, in September 2009, USMS
senior management directed the Office of Inspection to draft a plan to
restructure OII and submit it to the Deputy Director. On September 19,
2009, the Chief of OII submitted a proposal that included data and
information comparing the operational differences between OII and
internal affairs offices in three other Department law enforcement
components. The proposal also provided two draft organization charts
for a restructured OII, one a centralized model and the second a regional
OII model.

      The Office of Inspection did not receive a specific response on the
proposal. When we interviewed the Deputy Director in January 2010, he
told us that after reading the proposal, USMS senior management
decided to convene a working group to develop additional options for
restructuring OII and solving the staffing problem. He said that in
October 2009 he had instructed the USMS Associate Director for
Administration to form a working group to address the understaffing
issues in OII. The Associate Director for Administration selected a
Deputy Assistant Director and three Chief Deputy U.S. Marshals who
had worked in internal investigations to comprise the working group.
The group issued its report in November 2009. (Appendix II contains
that report.)

       The report recommended elevating all OII investigator positions
from a GS-13 to a GS-14, the Chief of OII from a GS-14 to a GS-15, and
possibly elevating the Chief of the Office of Inspection to a Senior
Executive Service position in the future.23 It also recommended
increasing the number of investigative and administrative positions in
OII. In addition, the report recommended that OII retain a centralized
office structure for the next several years and be reevaluated in the
future for possible regionalization. In December 2009, the USMS
Associate Director told us that USMS senior management had not made
any decisions regarding the recommendations of the working group.


       23 Currently, the GS-13 investigators reporting to the two GS-14 Chief
Inspectors, who in turn report to the GS-15 Chief of the Office of Inspection.


U.S. Department of Justice                                                       23
Office of the Inspector General
Evaluation and Inspections Division
       After the OIG completed fieldwork for this review, in December
2009 the USMS Human Resources Division began reviewing the grade
level of the OII investigator positions. On January 21, 2010, the USMS
decided to upgrade 5 of the 10 investigator positions in the Office of
Inspection from GS-13 to GS-14 and to upgrade the two Chief positions
from GS-14 to GS-15.24 The new GS-14 investigator positions are
considered non-supervisory team leaders, thereby qualifying for the
GS-14 level. The USMS advertised for the five GS-14 and the two GS-15
positions on January 22, 2010, with a February 5, 2010, closing date.

       The Chief of the Office of Inspection told us that he was pleased
that the positions had been upgraded. However, at that time it was
unclear how the positions would be allocated between the two offices
within the Office of Inspection, OII and the Office of Compliance and
Review. Subsequently, the USMS told the OIG that the decision on how
to allocate the positions was up to the Chief of the Office of Inspection.

        Our review concluded that the upgrading of some of the OII
investigator positions should help the USMS attract more candidates for
current vacancies. However, it remains unclear whether OII will be able
to fill vacant investigator positions that remain below the GS-14 grade
level. The Chief of the Office of Inspection told us in March 2010 that
only one person had applied for OII’s five GS-13 vacancies.

More temporary investigators were recruited in December 2009.

       At the same time USMS management was considering the
restructuring of OII and reclassification of investigator positions, in
December 2009 OII received approval to recruit another 10 temporary
investigators to serve 90-day rotations. OII received 16 applications in
response to its announcement and was able to fill all 10 temporary
positions. The 10 temporary investigators started work in January 2010
and will complete their terms in April 2010. The Chief of OII believed
that the increase in applications was attributable both to several USMS
staff interested in the temporary positions having become eligible to
apply after they attained GS-12 status in the field and to the general




       24  The Office of Inspection currently has 10 authorized GS-13 investigator
positions (7 OII investigators and 3 Office of Compliance Review investigators) and 2
authorized GS-14 Chiefs (Chief of OII and Chief of the Office of Compliance Review).


U.S. Department of Justice                                                              24
Office of the Inspector General
Evaluation and Inspections Division
knowledge that the USMS was considering upgrading the GS level of the
OII investigator positions.25

       Although OII received more applications for the temporary
investigator positions, and these investigators are expected to help
complete more cases, the Chief of OII believes this is not a long-term
solution to the understaffing problem. He noted that temporary
assignments last only 90 days, the assignments created an
administrative burden for OII, and the office is still not filling the vacant
full-time investigator positions. The Deputy Director also told us in
January 2010 that USMS senior management saw this as a short-term
solution until OII was fully staffed.




       25 Deputy U.S. Marshals were required to have reached the GS-12 level prior to
applying for the temporary investigator position. Seven of the 16 applicants had
reached this eligibility level in September 2009.


U.S. Department of Justice                                                         25
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



       The USMS OII has not been fully staffed since 2002 and has been
severely understaffed for at least 3 years. As a result, from FY 2004 to
FY 2009, the majority of OII’s misconduct investigations were not
completed in accord with the USMS timely standards. When we
compared OII to other Department agencies’ internal investigations
offices, we found that OII’s investigators have caseloads three to five
times larger than the other agencies’ investigators.

       The Office of Inspection has been requesting assistance to address
OII’s staffing shortages since at least 2006. OII received approval in May
2009 to advertise for a few temporary duty assignments to assist with the
large caseload. The initiative was helpful, but provided only a short-term
remedy and did not address the underlying problem of attracting
applicants to the OII investigator positions.

      After the OIG initiated this review in October 2009 the USMS
convened a working group to address the understaffing problems in OII.
In January 2010 the USMS upgraded 5 of the 10 Office of Inspection
investigator positions from GS-13 to GS-14 and two Chief positions from
GS-14 to GS-15. However, it was unclear how to allocate the upgraded
investigator positions between OII and the Office of Compliance Review.
The USMS subsequently told the OIG that the Chief of the Office of
Inspection could decide how to allocate the positions.

       We believe that upgrading some OII investigator positions is a
positive step and should help to attract more candidates to the office.
But it is not clear that OII will be able to fully staff the remaining GS-13
positions. The OII’s ability to attract 10 investigators for 90-day
rotations should also be helpful to temporarily alleviate the large
caseload. Yet, as the experience with the previous temporary
investigators showed, the limited duration of these assignments limits
the contribution that the detailees can make.

       We believe that additional actions are required to ensure that
sufficient resources are allocated for internal investigations, both in the
short and the long term.

       Therefore we recommend that USMS:

       1. Continue to pursue short-term strategies to staff the vacant OII
          investigator positions until they can be filled with permanent

U.S. Department of Justice                                                 26
Office of the Inspector General
Evaluation and Inspections Division
          employees, such as by temporarily assigning investigators to
          OII.

       2. Develop a strategic plan to ensure that OII has sufficient
          resources to perform its mission in the long term. The plan
          should be based on a careful analysis of:

           		 whether OII’s structure should remain centralized or be
               regionalized;
           		 the appropriate staffing levels of OII (including investigator,
               administrative, and analytic positions), based on the
               investigative caseload and reasonable investigator case
               assignments; and
           		 the feasibility of and plan for creating a career path for
               Deputy U.S. Marshals that includes a headquarters tour of
               duty.




U.S. Department of Justice                                                  27
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX I: COMPARISON OF DEPARTMENT OF JUSTICE 

                COMPONENTS’ INTERNAL INVESTIGATIONS OFFICES 





                        USMS                 ATF                 DEA                        FBI

Staff in the
agency at end           4,902               5,071                9,560                 32,914
of FY 2009
Misconduct       FY 2008 = 431       FY 2008 = 379        FY 2008= 751          FY 2008 = 2,579
allegations
received         FY 2009 = 441       FY 2009 = 333        FY 2009 = 629         FY 2009 = 1,408
Investigations
                 FY 2008 = 187       FY 2008 = 89         FY 2008= 751          FY 2008 = 162
conducted by
internal
investigations   FY 2009 = 228       FY 2009 = 100        FY 2009 = 629         FY 2009 = 132
office
                 10 total:           23 total:           52 total:              26 total:
Number and
type of staff    7 Investigators    12 Investigators     29 Investigators       10 Investigators
positions in     1 Supervisor/       3 Use of Force       7 Supervisors/         4 Supervisors/
internal           Manager             Investigators       Managers                Managers
investigations    2 Support (shared 3 Supervisors/       16 Support             12 Support
office              positions)         Managers
                                     5 Support
Caseload of
                      40+ cases         10 to 15 cases         12 cases             7 to 8 cases
Investigators
GS levels of
                        GS-13               GS-14               GS-14                  GS-14
Investigators
Requirement      No requirement to   Work in head-        Three years’ work     Work in internal
to work in       work in head-       quarters required    in headquarters       investigations or
headquarters     quarters and no     as part of career    required as part of   conduct of field-
or internal      career path         path                 a career path         level misconduct
investigations                                                                  investigations
for career                                                                      required as part of
progression                                                                     a career path
      Notes: The DEA opens every allegation as an internal investigation; therefore, the
      numbers are equal. The caseloads include only the cases conducted by the internal
      investigators.
      Sources: The USMS, ATF, DEA, and FBI. The number of staff in the agencies was
      taken from FY 2009 U.S. Department of Justice Performance Report.




      U.S. Department of Justice                                                             28
      Office of the Inspector General
      Evaluation and Inspections Division
           APPENDIX II: USMS OII WORKING GROUP REPORT 




                      RESTRUCTURING OF THE OFFICE OF INSPECTIONS


     The Office of Inspections Working Group met at USMS Headquarters in Arl ington, VA
     the week of October 26, 2009. The group is comprised of the following individuals:

                                     Steve Conboy, DAD, JSD
                                  Reggie Bradshaw, CDUSM , DN I
                                   Lori Commins, CDUSM , E/MI
                                   Jim Umbach, ACDUSM , D/AZ

                                            Obs e rva tions

     Curren tly, the reporting levels ha ve the GS-13 Inspectors reporting to the GS-14 Chief
     Inspectors of all/OCR and they in turn answer to the GS-15 Chief of the 01.               This
     structure has been in place off and on for approximately 15 years and has proven to be
     effecti ve . It is imperative that the field Inspectors have a direct report who is readily
     accessible and most familiar with the mechanics/structure of the respective units. The
     01 Chief, having the experience, skill and knowledge wil l be able to discern which
     reported incidents rise to the level of importance for decisions such as immediate
     response or investigat ion necessary, referra l to the district or notification/referral to the
     Deputy Director.

     Although a ll and OCR were reg ionalized over the past several decades, the obvious
     need for centralization ou twe ighs an y consideration for regionalizing the workforce at this
     time .  Until the worklo ad is managed more effecti ve ly and efficiently, combin ing
     operational and administrative resources appears to be the most efficient way for the
     division to function in addressing the sign ificant issues such as case backlog.

     Based on the number of 2008/2009 Merit Promotion Opportunity listing respondents, it
     has become apparent that recruiting personnel to fill the numerous vices in 01 is an
     issue. Coupled with the fact that the reporting memo for 0 11 is six years old (2003) and
     needs to be updated on ly compounds the fact that 011 is in need of immediate attent ion.

                                                Charge

     The committee was tasked by ADA Don Donovan with revie wing the current structure in
     the Office of Inspections (0 1), as it relates to the operation of the Office of Interna l
     Investigations (011 ) and the Office of Compliance Review (OCR). Numerous interviews
     were conducted by committee members with prior and current Inspectors from 0 1as well
     as other personnel who had insight into the inner workings of the 01.

     Specifical ly, two issues were brought to the foref ront

            1. Shou ld changes be made to the existing reporting levels and if so, what might
               they be regardi ng reporting and pay?
            2 . Is it necessary to centra lize the operations or is regionalization a viable option?




U.S. Department of Justice                                                                             29
Office of the Inspector General
Evaluation and Inspections Division
                                            Recomm en dations

          1. The changes w hich should be made to the existing reportin g levels regard ing
             reporting and pay are:

          •   Upg rade Inspectors from GS-13 to GS- 13/14 levels via Merit Promotion.
          •   Upg rade Ch ief Inspectors to GS-15 and rena me the m UDeputy Chief'.
          •   Keep the Ch ief, 01 as a GS-15 with an eye towards possibly making the position a
              SES w hen the staff size increases or reg ional ization occurs .
          •   Increase FTE Inspector positions f rom 10 to 18.
          •   Increase FTE admin istrative positions to 8.
          •   Inspectors may be assigned to 0 11 and OCR during the ir tour in 0 1.
          •   Inspectors' assignme nt to 01 shou ld be no longe r than 4 years.
          •   Deputy Chi efs ' assignment shou ld be no longer than 6 years.

       W ith the tremendous influx of Headquarters GS-14 and GS-15 positions located
       reg ionally, assignments requiring personnel report to the Headquarters office in Arlington
       is ofte n perceived as one of the least desirable managerial positions in the agency. The
       disadvantages to working in the D.C. metropo litan area fa r outweig h the advantages at
       the GS-13 grade level. Raising the grade level of this pos ition will entice the fie ld to
       app ly for the numerous vacancies. A GOV being assigned to each Grade 14 and 15
       operationa l FT E at HQ is on the horizon and should be helpfu l in attracting Inspectors. It
       should be duly noted that other DOJ age ncies (ATF , DEA, FBI) O il/OCR Inspectors ,
       Chief Inspectors and Divi sion heads are hired a grade higher tha n US MS personnel , that
       be ing GS-14, GS -15 and GS-15/SES respecti vely. However, the journeyman grade
       level fo r the other age ncies is GS-13 versus the USMS GS -12.

          2. [n regard to the vi abi lity of the option of centralization versus regiona lization :

          •   01 needs to remain centralized for the next several (4-5) years.

       However, should recru iting/retaining personnel for the D.C. metro area continue to be an
       issue , as part of a lo ng term strategy OCRIOI may need to be reg iona lized . The process
       for do ing so would occur in conce rt w ith the rota tional assignments of the Inspectors.

       In doing so, reg ionalizing the offices would allow personne l the opportunity to work for 0 1
       in numerous satellite offices strategica lly located throughout the United States. This
       practice is quite com monplace in the agency as exemplified by the large numbe r of [00 ,
       JSD , AF D and W SD person nel situated around the cou ntry.            The timefra me for
       establishing regio nal offices is roughly 18 - 24 months, accord ing to OCM with the PCS
       costs associated with same at rough ly $11 5,000 for a GS -13 and $250 ,000 for a GS-
       14115 .

       Historica lly, the concept of regionalization v centralization of 0 1 varied from one USMS
       ad ministra tio n and both have worked for 0 1 in the past. The only co ncern with sa me is
       that OCR may not be as effective on a regional basis , i.e . individua ls work more
       autonomously and in the OCR there is a greater need and emphasis on team
       co ll aboration.




U.S. Department of Justice                                                                              30
Office of the Inspector General
Evaluation and Inspections Division
                             ACTION ITEMS TO ADDRESS THE OFFICE
                                             OF
                              INTERNAL INVESTIGATIONS BAC KLOG

       Presently the 011 is dealing with an exorb itant backlog w hich needs 10 be addressed
       immediately. Feedback the committee received from the variou s sources provided the
       following options:

          •   TOY USMS personnel to HQ w ith a financial incentive (based on length of
              assignment).
          •   Assign low-level cases to former 011 Inspectors or district upper management
              members w ho have been appropriately tra ined to hand le cases of this nature. A
              cadre of 10 shou ld initially suffice.
          •   Hire additiona l personne l, like retired 01 DUSMs to work Use of Force/Lost
              Badge/Credentia l cases.
          •   New business practices must be developed. It is unclear whether any alternatives
              other than standard operating procedures have been explored by the 01
              management. At a minimum, the Chief Inspector of 011 and Chief of 0 1should be
              assigned cases , especially w hen subjects emp loyees are grade GS-15 and
              above.
          •   A position to address the cases received needs to be created quickly. The intake ,
              revie w and prioritization of reported misconduct is vital to the process and can be
              an effective way to manage the backlog if done correctly.




U.S. Department of Justice                                                                           31
Office of the Inspector General
Evaluation and Inspections Division
                         APPENDIX III: THE U.S. MARSHALS 

                              SERVICE’S RESPONSE 




                                                          U.S. Department of Justice

                                                          United States Marshals Service

                                                          Office of the Director




                                                           March 26, 2010



        MEMORANDUM TO:              Michael Gulledge
                                    Assistant [nspector General
                                     for Evaluation and Inspection

                                I
                       FROM: john F. Clark 1 /)
                               I'( Director     0~'
                                                       '~7
                    SUBJECT:        Review of the USMS Office oflo temal rnvestigations.
                                    A·2009-007


             Thank you for the opportunity to comment on the draft audit report on your Review of
      the USMS Office of Internal Investigations. We have reviewed the report, and O UT comments
      regarding each of the recommendations are attached.

             Should you have any question or concerns regarding this responsc, please contact Isabel
      Howell, Audit Liaison, at 202-307-9744.

      Attachment




U.S. Department of Justice                                                                             32
Office of the Inspector General
Evaluation and Inspections Division
                                             Recommendations

    Recommendation 1:

    Continue to pursue short-term strategies: to staff tbe vacant 01 I invtstigator positi.ons until
    tbey can be filled ",ith p ermanent employees, such as by tempc.rarily assigning
    investigators to on.

    Response: (Agree) Oll currently has ten criminal investigators from field offices temporarily
    assigned to the Office of Inspection (01) . In addition, 01 is pursuing additional resources to train
    ten Chief Deputy United Stat"s Mmhals on conducting on investigations, with the ultimate
    intent to utilize them as aux iliary investigators on internal investigaHons. 01 will continue to
    explore other short-tenn strategies to staff the vacant Oil investigator positions.

    Recommendation 2:

    Develop a strategic p lan to ensure that 011 has sufficjenl resources to pcrform its miss ion
    in the long term. The plan should be based on a careful analysis (Jf:

        • Whether Oil' s struct-ure should remain centralized or be regjQ~aliz.cd ;
        •   The appropriate staffing I~vcls of on (incl uding investigator, ad ministrative, and
            analytic positions), based on the investigative caseload and reasonable investigator
            case assignmcnts; and
            T he feasibility of and plan for creating a career p ath for Deputy United States
            Marshals tbat includes a headquarters: tour of duty .

    R esponse: (Agree) 0 1 will undertake to conduct a careful analysis to develop a strateg.ic plan for
    0 11 perfonnance of its miss ion in the long Lerm. The analysis will incl ude a review ofa
    centralized or regionalized structure, staffing levels, and the feasibility o f cre ating a career path
    that incl udes a tour of duty to USMS Headquarters. Cteating a career path for Deputy
    United States Marsbals is a far more tasking commitment that would req uire restructuring
    current USMS personnel practices. The creation of a career path has budgeti ng and
    appropriation requirements that would prevent the implementation and development of a career
    path program.




U.S. Department of Justice                                                                                    33
Office of the Inspector General
Evaluation and Inspections Division
                  APPENDIX IV: OIG ANALYSIS OF THE
                  U.S. MARSHALS SERVICE’S RESPONSE


      The Office of the Inspector General (OIG) provided a draft of this
report to the U.S. Marshals Service (USMS) for its comment. The USMS’s
response is included in Appendix III to this report. The OIG’s analysis of
the USMS’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 1. The USMS continue to pursue short-term
strategies to staff the vacant OII investigator positions until they can be
filled with permanent employees, such as by temporarily assigning
investigators to OII.

       Status. Resolved – open.

       Summary of USMS Response. The USMS concurred with the
recommendation and stated that OII currently has 10 temporary
investigators from field offices. In addition, the USMS stated that it is
pursuing resources to train Chief Deputy U.S. Marshals to conduct
misconduct investigations so that they can act as auxiliary investigators
for internal investigations. OII will continue to pursue other short-term
strategies to staff the vacant OII investigator positions.

       OIG Analysis. The actions described by the USMS are partially
responsive to the OIG’s recommendation. The OIG notes that the
temporary investigators are only committed for 90-day terms that end in
April 2010. While there is a plan to train Chief Deputy U.S. Marshals to
conduct misconduct investigations, the USMS is still pursuing resources
for the training. Please provide the OIG with an update on the status of
the training of Chief Deputy U.S. Marshals and any other short-term
strategies to staff the OII investigator positions by July 1, 2010.

Recommendation 2. The USMS develop a strategic plan to ensure that
OII has sufficient resources to perform its mission in the long term. The
plan should be based on a careful analysis of:

          whether OII’s structure should remain centralized or be
           regionalized;
          the appropriate staffing levels of OII (including
           investigator, administrative, and analytic positions),
           based on the investigative caseload and reasonable
           investigator case assignments; and
U.S. Department of Justice                                                34
Office of the Inspector General
Evaluation and Inspections Division
       		 the feasibility of and plan for creating a career path for
           Deputy U.S. Marshals that includes a headquarters tour
           of duty.

       Status. Resolved – open.

      Summary of USMS Response. The USMS concurred with the
recommendation and agreed to conduct a study to develop a strategic
plan to allow OII to perform its mission in the long term. The USMS
stated that it will conduct a careful analysis of OII’s structure,
appropriate staffing levels, and the feasibility of creating a career path for
Deputy U.S. Marshals. The USMS noted that creating a career path for
Deputy U.S. Marshals would require changing current USMS personnel
practices.

      OIG Analysis. The actions planned by the USMS are responsive to
our recommendation. Please provide an update on the study to develop
a strategic plan to staff the OII by July 1, 2010.




U.S. Department of Justice                                                 35
Office of the Inspector General
Evaluation and Inspections Division
